<html>
<title> - U.S. INTERROGATION POLICY AND EXECUTIVE ORDER 13440</title>
<body><pre>[Senate Hearing 110-849]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-849

          U.S. INTERROGATION POLICY AND EXECUTIVE ORDER 13440

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 25, 2007

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate










                  U.S. GOVERNMENT PRINTING OFFICE
48-396 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001




                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
               CHRISTOPHER BOND, Missouri, Vice Chairman
DIANNE FEINSTEIN, California         JOHN WARNER, Virginia
RON WYDEN, Oregon                    CHUCK HAGEL, Nebraska
EVAN BAYH, Indiana                   SAXBY CHAMBLISS, Georgia
BARBARA A. MIKULSKI, Maryland        ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 RICHARD BURR, North Carolina
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                   Andrew W. Johnson, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk


























                                CONTENTS

                              ----------                              

                           SEPTEMBER 25, 2007

                           OPENING STATEMENT

Bond, Hon. Christopher S., Vice Chairman, a U.S. Senator from 
  Missouri.......................................................     1

                               WITNESSES

Statement of Lieutenant General Charley Otstott, U.S. Army, Ret..     2
Statement of Colonel Steven Kleinman, U.S. Air Force Reserve, 
  Educing Information Study Senior Advisor.......................     4
Statement of Allen S. Keller, M.D., Associate Professor of 
  Medicine, New York University School of Medicine; Director, 
  Bellevue/NYU Program for Survivors of Torture; Member, Advisory 
  Council, Physicians For Human Rights...........................     9
Statement of Elisa Massimino, Washington Director, Human Rights 
  First..........................................................    16
Statement of Professor Robert F. Turner, SJD, Center for National 
  Security Law, University of Virginia School of Law.............    37

                       SUBMISSIONS FOR THE RECORD

Prepeared Statement of Hon. John D. Rockefeller IV, Chairman, a 
  U.S. Senator from West Virginia................................     1
Prepared Statement of Colonel Steven Kleinman....................     6
Statement of Allen S. Keller.....................................    11
Prepared Statement of Elisa Massimino............................    19
Prepared Statement of Professor Robert F. Turner.................    39
Statement of the American Psychological Association Concerning 
  Psychology and Interrogations..................................    87
Statement of Rev. George Hunsinger on Behalf of the National 
  Religious Campaign Against Torture Concerning CIA Interrogation 
  Techniques.....................................................    91

 
          U.S. INTERROGATION POLICY AND EXECUTIVE ORDER 13440

                      TUESDAY, SEPTEMBER 25, 2007

                               U.S. Senate,
                  Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to recess, at 3:40 p.m., in 
Room SH-219, Hart Senate Office Building, the Honorable 
Christopher S. Bond (Vice Chairman of the Committee) presiding.
    Committee Members Present: Senators Bond, Feinstein, and 
Whitehouse.
    Committee Staff Members Present: Andy Johnson, Staff 
Director; Louis Tucker, Minority Staff Director; Michael 
Davidson, General Counsel; Kathleen McGhee, Chief Clerk; Randy 
Bookout, Eric Chapman, Tom Corcoran, John Dickas, Melvin Dubee, 
Evan Gottesman, David Grannis, Andrew Kerr, Paul Matulic, Don 
Mitchell, Eric Pelofsky, Mike Pevzner, Jacqueline Russell, 
Michal Schafer, Alissa Starzak, Greg Thielmann, and Jim Wolfe.
    Vice Chairman Bond [presiding]. This hearing will come to 
order.

OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM MISSOURI

    Unfortunately, the Chairman has been called away for a very 
important ceremony honoring his colleague in the Capitol, so, 
without objection, his full opening statement will be entered 
into the record.
    [The prepared statement of Chairman Rockefeller follows:]
  Prepared Statement of Hon. John D. Rockefeller IV, Chairman, a U.S. 
                       Senator from West Virginia
    We are now going to continue our discussion of interrogation in 
today's second panel.
    Although we very rarely hear from non-government witnesses, the 
topic of interrogation poses legal and moral questions that require 
public debate.
    If we truly want to answer the question of what is in the best 
interest of the country, we must ensure that we hear outside 
perspectives on the impact of U.S. interrogation policies and 
practices.
    Our witnesses are well equipped to provide us that outside 
perspective. Our panelists today have military and interrogation 
experience, legal familiarity with international treaty obligations, 
and experience treating patients exposed to the harsh interrogation 
tactics of other countries. These witnesses can help us answer a 
variety of unclassified questions on interrogation issues.
    Our witnesses today can help us better understand the recent 
Executive Order interpreting Common Article 3 of the Geneva 
Conventions. Is the Executive Order consistent with historical 
interpretation of Common Article 3? Does it change the ``humane 
treatment'' standard of Common Article 3 to permit treatment that we 
would find unacceptable if used against an American solider? Will the 
193 other countries that have signed on to the Geneva Conventions agree 
with our interpretation of Common Article 3?
    Our witnesses can also help us consider the practical impact of the 
Executive Order. What does the Executive Order say about our commitment 
to human rights and our international treaty obligations? How will it 
affect our military personnel operating abroad?
    Finally, our witnesses can help us consider prospective U.S. 
policies. The need to obtain actionable intelligence from detainees is 
unlikely to end in the near future. How do we go about conducting 
interrogation if we want to ensure both that we obtain the intelligence 
we need to protect the nation from attack and that we maintain our 
moral standing in the world?
    Although the Committee has agreed to conduct this second panel in 
closed session, many of the witnesses for this panel do not have 
clearances. Therefore, no classified information may be discussed 
during this second session.
    Because the Committee thinks it is important that the debate on 
these important topics be made public, the Committee has made the 
decision to post witness statements immediately following the hearing. 
Once the hearing transcript from this second portion of the hearing is 
completed and reviewed, the transcript will also be made part of the 
public record.
    I welcome our witnesses today for the second panel: Lieutenant 
General Charley Otstott; Colonel Steven Kleinman; Dr. Allen Keller, the 
Program Director of the Bellevue/NYU Program for Survivors of Torture; 
Elisa Massimino, the Washington Director of Human Rights First 
Professor; and Robert Turner, from the University of Virginia Law 
School's Center for National Security Law.

    Vice Chairman Bond. It is important, I should note, that we 
have previously agreed that although the Committee has agreed 
to conduct this second panel in closed session, many of these 
witnesses do not have clearances; therefore, to my Members and 
staff, no classified information may be discussed during this 
second session.
    But, because the Committee thinks it's important that the 
debate on these important topics be made public, the Committee 
has made the decision to post witness statements immediately 
following the hearing. Once the hearing transcript from the 
second portion of the hearing is completed and reviewed to 
assure no classified information, the transcript will also be 
made part of the public record.
    Today it's my pleasure on behalf of the Chairman to welcome 
our witnesses for the second panel--Lieutenant General Charlie 
Otstott, Colonel Steve Kleinman, Dr. Allan Keller, the program 
director of the Bellevue/NYU Program for Survivors of Torture, 
Elisa Massimino, the Washington Director, Human Rights First, 
and Professor Robert Turner from the University of Virginia Law 
School Center for National Security Law.
    With that, I will now call upon General Otstott.

  STATEMENT OF LIEUTENANT GENERAL CHARLEY OTSTOTT, U.S. ARMY, 
                              RET.

    General Otstott. Good afternoon, Senators, and thank you 
for hosting us today. It's a pleasure to be here to provide my 
personal views as a combat veteran on the topic of handling of 
detainees.
    I was commissioned in the infantry from West Point in 1960 
and served 32 years in the Army. I served two combat tours in 
Vietnam, first as an advisor to South Vietnamese infantry 
battalions in 1964-1965 and then as a member of the 101st 
Airborne Division as a rifle company commander and a battalion 
operations officer in 1967 to 1968.
    I was always guided by my understanding during that time of 
the Geneva Conventions and by a clear ethical code that said 
essentially treat detainees as you would wish them to treat 
you. I followed this code even when I suspected the enemy might 
not treat us the same way. But I believe that operating from 
this position on the moral high ground gives our soldiers the 
right to expect decent treatment if they are captured.
    The language of Common Article 3 of the Geneva Conventions 
provides a clear standard of treatment of detainees on the 
battlefield. The Army has recently published a revised field 
manual, following Abu Ghurayb, which further codifies the 
proper handling and interrogation of detainees. In my view, 
soldiers need clear guidance in the heat of combat. The new 
field manual provides an easily understood standard, and the 
Army has taken measures to correct the ambiguities that 
probably contributed to the situation at Abu Ghurayb.
    Some might claim the new field manual is too simplistic for 
sophisticated interrogators, but the principles reflected in 
the field manual are values that no U.S. agency should violate. 
The FM provides a set of approaches to interrogation that 
should be sufficient to guide even the most sophisticated 
interrogator.
    General Petraeus recently reinforced the field manual 
standards in his letter to the troops of the Multinational 
Force-Iraq on 10 May of this year, which condemned the abuse of 
detainees. In the letter he says the following: ``We are indeed 
warriors. We train to kill our enemies. We are engaged in 
combat. We pursue the enemy relentlessly, and we must be 
violent at times. What sets us apart from our enemies in this 
fight, however, is how we behave. In everything we do, we must 
observe the standards and values that dictate that we treat 
noncombatants and detainees with dignity and respect.''
    So the military or the uniformed services are back on 
track, trying to adhere to a simple, clear and understandable 
standard for the treatment of detainees as found in the field 
manual. Senior military leaders are now speaking out to make 
sure that the standards are understood all the way down to the 
lowest levels.
    But the President's Executive Order of 20 July expresses an 
interpretation of Common Article 3 which appears to provide a 
different set of standards for the CIA in the handling and 
interrogation of detainees. In my opinion, there are two 
problems associated with this new Executive Order.
    First, any techniques used by the CIA under this program 
are essentially those which our soldiers could expect to have 
used against them if they fall into enemy hands. Admiral 
McConnell, in speaking publicly about the Executive Order and 
the CIA program, admitted that he ``would not want a U.S. 
citizen to go through the processes'' that are allowed under 
this order.
    Second, the Order reintroduces ambiguity into situations 
where CIA and U.S. military personnel are working side by side, 
as in many locales within Iraq today. The existence of 
different standards does not work well in practice and provides 
a confusion factor which detracts from clear guidance and 
simple standards. This confusion can lead to the disgraceful 
behavior which we saw earlier in the current conflict.
    I conclude by urging you to do all within your power, 
Senators, to maintain the integrity of Common Article 3 and to 
provide a single, clear standard of behavior for all U.S. 
personnel engaged in this and future conflicts.
    Thank you.
    Vice Chairman Bond. Thank you very much, General. Now we 
turn to Colonel Kleinman.

 STATEMENT OF COLONEL STEVEN KLEINMAN, U.S. AIR FORCE RESERVE, 
            EDUCING INFORMATION STUDY SENIOR ADVISOR

    Colonel Kleinman. Mr. Vice Chairman and Members of the 
Committee, it's truly an honor to be here today and share my 
thoughts on this very important issue.
    My background, over 20 years of commissioned service, 
focused primarily on human intelligence operations, much of 
that involving interrogations, including three military 
campaigns--in Panama, first Gulf War and, most recently, in 
Iraqi Freedom. In addition, I was the DOD's senior intelligence 
officer for special survival training. What that means is I was 
also an expert on the counter-strategies to resist 
interrogation, one of the few people, fortunately enough, who 
have actually worked on both sides of the table, so to speak.
    Senator Feinstein. Did you say ``fortunate'' or 
``unfortunate?''
    Colonel Kleinman. I will say fortunate, very fortunate.
    This background will indelibly inform the perspectives that 
I want to share with you today, as I was asked to address three 
primary areas--historical U.S. practices, the effectiveness of 
various interrogation approaches, and, finally, challenges 
faced by the United States as we move forward.
    As a student at the Defense Intelligence College, I wrote a 
thesis on the U.S. interrogation program during World War II, 
and I began that thesis with a quote from a British officer who 
worked in a counterpart program. He said, ``Interrogation of 
prisoners is a difficult and delicate task that cannot be 
conducted by anybody anywhere, by no matter what method. It is 
indispensable if results of any value are to be obtained, that 
the examination be conducted in a skilled, planned, and 
methodical manner.''
    The U.S. program I studied, known as MIS-Y, clearly took 
that guidance to heart. Operating without established doctrine, 
these very creative and dynamic individuals serving as 
interrogators, as analysts and as monitors, developed an 
incredibly effective program, the product of which would soon 
be on par with the vaunted communication intercepts of the 
ENIGMA program.
    The lessons I learned in my studies are these. Number one, 
interrogation is a complex, dynamic process that is as 
operationally vexing as any clandestine operation. MIS-Y 
responded to the challenge by recruiting a cadre of individuals 
with impressive academic credentials, such successful life 
experience, with knowledge of the language and culture and an 
ability to produce results in an ambiguous and chaotic 
environment.
    Secondly, to maximize the return on their investment, they 
selected only those prisoners that they knew to possess 
information of critical intelligence value. That process of 
selection was both judicious and meticulous. The exhaustive 
research that went into the effort before every interrogation 
was amazing. The standard became three to six hours of 
preparation for every hour actually spent in interrogation.
    Unfortunately, due to the time when we transitioned rapidly 
from World War II into the era of the cold war, much of this 
information, the corporate knowledge from MIS-Y, was classified 
and remained unavailable to inform the stories that unfolded 
during subsequent conflicts in Korea, Vietnam and in the Gulf. 
So those chapters were not informed by the previous and very 
successful chapter.
    Moving on to effectiveness, most of the debate surrounding 
the topic of interrogation has focused on this question. 
Interrogation is, at its best, an art and a science, probably 
more the former than the latter, and certainly effectiveness 
falls into that. While the U.S. government invested an 
extraordinary amount of time and money into studying what we 
used to call the communist interrogation model during the 
fifties, sixties and seventies, very little time was spent 
studying interrogation--meaning the collection of intelligence 
information from sources who might possess that intelligence.
    The intent was honorable. If we could deconstruct that 
model, perhaps we could identify counter-strategies to resist 
it. Unfortunately, we spent very little time studying the 
interrogation for intelligence gathering purposes, and I would 
state for you today that most of the approaches, most of the 
strategies, in fact the paradigm behind the current Army field 
manual is not based on scientific inquiry. It is, at best--and 
I've done my research in the archives--it is, at best, based on 
a collection of lessons learned assembled after World War II. 
The trail backward from the present disappears in 1950 but has 
nonetheless been codified in each successive iteration. So what 
we know about ``pride and ego-up'' and ``emotional love of 
country,'' and ``we know all'', is essentially speculation.
    In the limited time I have I wanted to turn very briefly to 
the concept of ``effectiveness'' as it might apply to the use 
of coercion. The debate around the employment of coercive 
methods seems to center exclusively on the legal and moral 
elements rather than the idea of what might be operationally 
effective. There seems to be a presupposition that coercion 
does work. It's just a question of should we, as a nation, use 
it.
    I submit that I have not seen--and I believe I can say that 
I've studied this issue at length--any definitive studies that 
would prove that coercive methods are at all useful in 
consistently producing valid intelligence information. Please 
recall that the whole purpose of interrogation is to have 
access to somebody's accurate, timely and comprehensive memory. 
A literature review on the psychology of eye- witness testimony 
will immediately raise important questions about the impact of 
stress on memory.
    I will just quickly press on to the conclusions. We need to 
understand both the art and science, and that will require a 
meaningful plan to conduct more research.
    We need to develop, I believe, like MIS-Y, an entity of 
common concern for the intelligence community that would 
address this research and ultimately put that research into 
effect, setting standards to truly professionalize this 
discipline, with all that this implies. In doing so, I think we 
can still meet the serious operational challenges we face, both 
those we encounter today and those that might emerge in a 
different paradigm in the future, and do so in a way that I 
think our country may think is impossible--that is, to conduct 
our affairs in a way that is truly good, thereby sending the 
message to the world that we are country that wishes to be 
truly great.
    Thank you very much.
    [The prepared statement of Col. Kleinman follows:]
             Prepeared Statement of Colonel Steven Kleinman
    Mr. Chairman, Mr. Vice-Chairman, members of the Committee, I would 
like to thank-you for the wonderful opportunity to testify at this 
hearing on interrogation policy.
    In the course of my more than twenty years of military service, I 
have had the great fortune to have been involved in the design, 
management, and conduct of the full spectrum of human intelligence 
operations. This experience has included service as an interrogator 
during three major military campaigns: Operation JUST CAUSE, Operations 
DESERT SHIELD/STORM, and Operation IRAQI FREEDOM. I also was entrusted 
with directing the Air Force Combat Interrogation Course during which 
we provided a unique training program for interrogators from all the 
services as well as several foreign countries. Reflecting upon these 
experiences today, I can assure you that never could I have imagined 
one day having the honor of appearing before this august body with what 
is almost certainly a once-in-a-lifetime opportunity to share my 
observations, insights, and recommendations.
    I have been asked to focus my remarks on three primary areas: 1) 
historical U.S. interrogation practices, 2) the effectiveness of 
various interrogation approaches, and 3) the challenges faced by the 
United States in developing an effective interrogation program. I'll 
begin, then, by addressing each of these issues before offering several 
concluding thoughts.
Historical U.S. Interrogation Practices
    As a student in the graduate program in strategic intelligence at 
the National Defense Intelligence College, I began my thesis on the 
U.S. strategic interrogation program during World War II with a quote 
from a British officer who had served in the United Kingdom's Combined 
Services Detailed Interrogation Center, an extraordinary program that 
would became the model for our own. I believe Flying Officer S.D. 
Felkin eloquently captured the intrinsic nature of interrogation when 
he observed:
        ``Interrogation of prisoners is a difficult and delicate task 
        that cannot be conducted by anybody, anywhere and by no matter 
        what method. It is indispensable, if results of any value are 
        to be produced, that the examination be conducted in a skilled, 
        planned and methodical manner.''
    The U.S. program that I studied in depth, conducted under the 
auspices of the Military Intelligence Service and referred to simply as 
MIS-Y, clearly took this guidance to heart. Operating without 
previously established doctrine, the dynamic and creative individuals 
who served as interrogators, analysts, and monitors developed an 
incredibly effective program, the product of which would soon be valued 
on par with the decisive intelligence generated by the vaunted Enigma 
communications intercept program.
    The lessons I uncovered in my research\1\ would, I believe, be of 
significant value in informing the American approach to interrogation 
in this contemporary era.
---------------------------------------------------------------------------
    \1\ A summary of my thesis has been made available to the 
committee's counsel.

    <bullet>  Interrogation is a complex, dynamic process that is as 
operationally vexing as any clandestine intelligence operation. MIS-Y 
responded to the challenge by recruiting a cadre of individuals with 
impressive academic credentials, successful life experience, knowledge 
of the language and culture, and adept at producing results in an 
environment marked by chaos and ambiguity.
    <bullet>  To maximize the return on investment, only those 
prisoners with access to, and knowledge of, information of critical 
intelligence value were ultimately selected for long-term examination 
at the Fort Hunt Facility. The multi-tiered selection process that 
developed can be described as both meticulous and judicious.\2\
---------------------------------------------------------------------------
    \2\ A total of 3,451of prisoners-of-war passed through Fort Hunt 
from August 1942 to July 1945.
---------------------------------------------------------------------------
    <bullet>  Exhaustive research and preparation prior to the conduct 
of every interrogation was standard. As the process evolved, three to 
six hours were invested in preparation for every hour spent in the 
actual interrogation. Interrogator--and interrogation teams--became 
bona fide subject matter experts in the array of specialized and 
technical areas of intelligence interest.

    Unfortunately, due to the prevailing national security interests 
that unfolded as the nation rapidly transitioned from World War II into 
the era of the Cold War, much of the corporate knowledge developed by 
the MIS-Y effort remained classified and largely unavailable until this 
treasure was once again declassified in the early 1990s. As a result, 
the stories of the American interrogation programs that emerged during 
subsequent conflicts in Korea, Vietnam, and the Gulf did so without the 
benefit of this extraordinary preceding chapter.
Effectiveness of Various Interrogation Approaches
    Much of the debate surrounding the topic of interrogation in recent 
times has focused on this very question. I think it would be safe to 
say that in viewing interrogation as both an art and a science, the 
discussion of effectiveness falls primarily within the province of the 
former. While the U.S. Government invested in the study of 
interrogation during the 1950s through the 1970s, those programs almost 
exclusively examined the intricacies of what was once labeled the 
Communist Interrogation Model. The initial intent, I would submit was 
honorable: if we could deconstruct the nature of this coercive model, 
perhaps we could identify effective counter-strategies and therefore 
better prepare Americans going in harm's way who might find themselves 
detained by nations that did not conduct their affairs in a manner 
consistent with the Geneva Conventions relative to the treatment of 
prisoners.
    Unfortunately, there was little interest in studying the nature of 
interrogation as a unique method of collecting critical intelligence 
information from foreign nationals detained by the United States. As a 
result, the interrogation strategies set forth in the current Army 
Field Manual are not based on scientific inquiry. Immersing myself in 
the archives, my best guess is that they are derived from lessons 
learned from tactical interrogations conducted during World War II. 
Those lessons--captured in such strategies as Pride & Ego Up, Rapid 
Fire, and We Know All--have since been codified into the various 
iterations of the Field Manual.
    Arguments for or against the effectiveness of this paradigm are 
based almost exclusively on anecdotal evidence. The fact that 
Specialist Jones orchestrated the Emotional Love of Family approach and 
obtained information of intelligence is too often viewed as prima 
fascia evidence of the effectiveness of this strategy. Factors such as 
the interrogator's presence or personality, the physical setting, and 
the events experienced by the prisoner prior to interrogation lay 
beyond our ability to thus far measure.
    While I have observed effective interrogations--and would like to 
think I've been effective in the course of the interrogations I've 
conducted--the only conclusion I can state that would meet the 
standards of scientific rigor is this: we don't know if the methods we 
are employing are effective, nor do we know for certain what other 
strategies or methods might be more effective than what we are teaching 
today.
    That said, the sum total of my experience suggests that the most 
effective means of conducting interrogations--and by effective, I mean 
achieving consistent success in obtaining accurate, comprehensive, and 
timely information--is through what has been frequently described as a 
``relationship-based'' model. Let me emphasize that this is far more 
than just establishing rapport; it involves the pursuit of operational 
accord. Employing non-threatening principles of persuasion and 
enlightened cultural finesse, the interrogator seeks to establish a 
productive, non-adversarial relationship wherein the source perceives 
his interests to be best served by engaging cooperatively with the 
interrogator. To borrow from negotiation theory, this involves 
fostering strategies rather than forcing strategies.
    Since issues relating to coercion and torture continue to occupy 
centerstage in the public debate over this country's interrogation 
policy, I think it would show lack of courage on my part to sidestep 
this issue completely. I continue to be amazed that in the debate 
involving the so-called ``ticking bomb'' scenario, there appears to be 
a pre-supposition that physical, psychological, and/or emotional 
coercion will compel a source to provide actionable intelligence with 
the parties focusing only on the legal and moral arguments in favor or 
in opposition. To the best of my knowledge, there is no definitive data 
to support that supposition and considerable historical evidence to 
suggest the contrary.
    I find that even the effort to define torture to be an elusive game 
at best. The problem lies in the fact that interrogations are conducted 
in the theater of reality, not a virtual world of words. From this 
operator's perspective, I find myself in full agreement with the 
observations of author Mark Moyar as set forth in his book, Phoenix and 
the Birds of Prey, a well-researched account of the Vietnam-era Phoenix 
Program.
        Some people define torture as the infliction of severe physical 
        pain on a defenseless person. I define torture as the 
        infliction of any pain on a defenseless individual because 
        deciding which activities inflict severe pain is an excessively 
        complicated and imprecise business.
Challenges Faced by the United States in Developing an Effective 
        Interrogation Program
    It is this professional's opinion that the challenges before us--
what I have described in my writings as barriers to success--are 
threefold:
    The first is the linguistic/cultural barrier to success. The 
interrogator's ability to engage with a source with near-native fluency 
and acute cultural awareness is of vital importance. Distilled to its 
most fundamental form, interrogation is about information and 
relationships, with language and cultural intelligence serving as the 
primary instruments.
    The second is the specialized knowledge barrier to success. Most 
experts agree that the both counterterrorism and counterinsurgency are 
intelligence-driven activities. In this regard, interrogation moves 
from the margins to play a central role in intelligence collection. As 
an example, General Hayden recently noted that more than 70 percent of 
the human intelligence used in the National Intelligence Estimate 
pertaining to threats to homeland security was based on information 
obtained from detainees.
    The nature of the information required in these realms, however, is 
profoundly different from that sought in a conventional Battlespace. 
Rather than order of battle and lines of communications, interrogators 
need a detailed understanding of arcane finance structures, amorphous 
cell networks, and communications systems brought forward from 
antiquity. As with the cultural barrier to success, the specialized 
knowledge barrier to success is predicated on Sun Tzu's timeless 
exhortation to know the enemy.
    Finally, there is what I've labeled the interpersonal barrier to 
success. The advent of the behavioral science consulting team concept 
resulted from a recognition that interrogation is an intense 
interpersonal dynamic bounded by complex informational and relational 
factors. Thus far, however, behavioral science consulting teams have 
been primarily comprised of clinical psychologists. To effectively 
overcome the myriad interpersonal challenges, the interrogator's 
methods should be informed by the full array of sound behavioral 
science, including at a minimum, such disciplines as social psychology 
and cultural anthropology.
Conclusions
    It is likely evident from my foregoing remarks that I believe we 
have challenges before us in evolving the American way of 
interrogation. These challenges, however, are not unlike those facing 
the United States in 1942. In recommending a way forward, then, I rely 
in part upon the lessons I learned in studying the MIS-Y experience. 
Leaders at that time identified four key areas of emphasis to ensure 
mission success.
    First, they needed to design an in-depth training program that 
transcended what was being taught in the basic interrogation courses. 
Today, this would require a comprehensive research effort and the 
systematic study of our interrogators who have demonstrated an ability 
to achieve consistent results.
    Second, they would require an innovative and adaptable approach to 
interrogation. The prisoners they faced were often well-educated, 
conversant in several languages, and moved easily across cultures. This 
also describes many of the high-value detainees we have encountered. A 
more sophisticated strategic model mandates a more sophisticated 
approach to research.
    Third, they needed to create a function-driven organization. I 
believe the Intelligence Community would be well-served by the creation 
of an organization of common concern vested with the responsibility for 
professionalizing the discipline of interrogation, managing a robust 
approach to studying the ``science'' of interrogation, and designing 
doctrine for incorporating the products of that research into field 
operations.
    And forth, they needed to establish a facility built to precise 
standards driven by operational requirements. To appreciate the 
importance of this step, one only need to reflect back upon the early 
difficulties experienced at the Guantanamo Bay facility.
    My operational experience has convinced me that these four steps 
can be taken in a manner that meets the spirit and even the most 
stringent interpretation of national and international law relative to 
the treatment of prisoners. Perhaps of more importance, I am equally 
convinced this course will enable us to meet current and emerging 
threats in a fashion consistent with the best moral traditions of this 
nation.
    In this way, I am confident that we would be able to what some of 
our countrymen have come to believe is impossible: to conduct our 
operations in a manner that demonstrates to all that we are truly good, 
so that we might, as a nation, embrace our desire to be truly great.

    Vice Chairman Bond. Thank you very much, Colonel Kleinman.
    Now we'll turn to Dr. Keller.

  STATEMENT OF ALLEN S. KELLER, M.D., ASSOCIATE PROFESSOR OF 
              MEDICINE, NEW YORK UNIVERSITY SCHOOL

 OF MEDICINE; DIRECTOR, BELLEVUE/NYU PROGRAM FOR SURVIVORS OF 
               TORTURE; MEMBER, ADVISORY COUNCIL,

                  PHYSICIANS FOR HUMAN RIGHTS

    Dr. Keller. Thank you.
    Thank you for the privilege of testifying before this 
Committee today. I'm testifying on behalf of the Bellevue/NYU 
Program for Survivors of Torture, as well as Physicians for 
Human Rights.
    I want to share with you my perspective as a physician 
concerning torture and interrogation practices. Mine is not a 
theoretical one. It's based on more than fifteen years of 
experience in caring for more than 2000 men, women and children 
from all over the world who have experienced torture and 
mistreatment, and studying the health consequences.
    The focus of my comments is on the profound and dangerous 
health effects of torture and interrogation techniques, often 
referred to in the seemingly innocuous way of ``enhanced 
interrogation techniques.'' I know you are all familiar with 
the list of these techniques. In my written testimony I have 
discussed several of them. I would be happy to answer 
questions. It is crucial that you understand from a medical, 
scientific and health perspective that there is nothing, 
nothing benign about these methods.
    If you take one thing away from what I say today, let it be 
that you know that these methods are dehumanizing, they are 
traumatizing, they are dangerous, and they have horrific health 
consequences. I've treated traumatized and damaged individuals 
who were subjected to every one of these techniques. Many forms 
of torture and abuse, including the enhanced interrogation 
techniques, may leave no physical scars but can nonetheless 
cause severe physical and psychological suffering. If a gun is 
held to someone's head and the trigger pulled in a mock 
execution, there may be no physical marks, but the nightmares, 
the terror, the fears can last a lifetime. Stress positions can 
kill you. I have patients who were nearly killed or still 
suffer, years after, from being forced to stand for extended 
periods and likewise suffer the psychological impact of what 
they endured.
    It's also important to note that any one form of torture or 
mistreatment rarely occurs in isolation but in combination with 
several abusive methods, and the context is also critical. 
There's a profound difference between the student pulling an 
all-nighter, the young physician who is on call every third 
night versus the detainee who is kept up for long periods who 
has no sense of when that mistreatment will end and rightfully 
fears for their life.
    Such methods are potentially harmful even to individuals 
who were healthy before. When used with individuals who have 
underlying psychological or medical problems such as heart 
disease or high blood pressure, they can be life-threatening by 
causing heart attacks or strokes.
    Now while the health consequences are clear, it's dubious 
at best that such methods elicit accurate information. I know 
from the victims I have cared for that they've told me that 
they would say whatever they thought needed to be said, whether 
it was true or not, to make these methods and this brutality 
stop. But there must be no mistake about the brutality of these 
enhanced interrogation techniques and no mistake about their 
health consequences.
    Let me just focus on two examples--first of all, stress 
positions and standing. There has been much discussion from 
individuals, saying, well, I stand for 18 hours a day while 
working. Let me tell you there is a profound difference between 
that and an individual forced to stand in one position for that 
period. I have a Tibetan monk who I've cared for, an individual 
who was arrested and mistreated for promoting freedom in Tibet, 
and as a result of his actions/activities, he was forced to 
stand and was beaten. He developed deep vein thromboses, clots 
in the lower extremities that migrated up to his lungs. When I 
saw him, he could barely breathe. He almost died. If not for 
life- saving surgery, in fact, he would have died.
    Sensory deprivation, such as being held in a dark cell or 
hooded results in disorientation, profound panic, and an 
adrenergic surge, a release of catecholamines that make you 
have heart palpitations and horrible fear.
    I have individuals who I've cared for years afterwards who 
remain claustrophobic and terrified of the dark, and these 
aren't individuals who were weak before they suffered this 
abuse. They were often high-functioning individuals who years 
later tragically are shells of who they were.
    I was asked to say a few words about the medical ethics of 
physician and health professional participation in 
interrogation. Let me just say this. First, it is a gross 
breach of professional ethics for health professionals to 
participate in torture in any way or countenance or condone 
torture or cruel, inhuman, or degrading treatment.
    Regarding interrogations, most major medical organizations 
have stated that it is a violation for health professionals to 
participate in any way. I'm also concerned as a health 
professional that if we as a nation in any way condone these 
methods, we are pouring kerosene on what is already a worldwide 
public health epidemic of torture and mistreatment.
    So, in conclusion, I would say, as a physician and 
scientist who has spent much of his career evaluating and 
caring for torture victims, I want to clearly state that these 
methods are cruel, inhuman and have horrific health 
consequences. I urge you to ensure that there is transparency, 
because that's the most effective means for stopping and 
preventing torture and to ensure that these methods are not 
allowed to be used on our watch.
    [The prepared statement of Dr. Keller follows:]
                 Prepared Statement of Allen S. Keller
    Thank you for the privilege of testifying before this committee 
today. I am testifying on behalf of the Bellevue/NYU Program for 
Survivors of Torture and Physicians for Human Rights. As a physician, I 
want to share with you my perspective on torture and abusive 
interrogation practices. My perspective is not a theoretical one. It is 
based on more than 15 years of experience in evaluating and caring for 
victims of torture and mistreatment from around the world, and studying 
the health consequences of such trauma. I will also address the ethical 
restrictions for health professionals regarding interrogations as well 
as the impact of U.S. policies on torture and mistreatment worldwide.
    The focus of my comments are on the profound and dangerous health 
consequences of torture and interrogation techniques, often referred to 
as seemingly benign ``enhanced interrogation techniques.'' While the 
full spectrum of such techniques used by U.S. authorities including the 
Central Intelligence Agency has not been disclosed, there have been 
reports that the ``enhanced'' interrogation program includes methods 
such as stress positions, shaking and beating, temperature 
manipulation, threats of harm to person or loved ones, prolonged 
isolation, sleep deprivation, sensory overload, sensory deprivation, 
sexual humiliation, exploitation of fears and phobias, cultural or 
religious humiliation, and water-boarding. From a medical, scientific 
and health perspective, there is nothing benign about them. Such 
techniques are gruesome, dehumanizing and dangerous. Noted one torture 
victim I cared for: ``As someone who has experienced torture, I know 
these things are torture.'' And in fact based on the medical evidence 
he is correct. Clinical experience and data from the medical literature 
are clear and unequivocal. These techniques can cause significant and 
long lasting psychological and often physical pain and harm. 
Furthermore, these methods have been implicated in the deaths of 
several detainees in U.S. Custody since the tragic events of September 
11, 2001.
    I urge the Committee to conduct a full investigation into the use 
of these techniques; ensure transparency with regards to what 
interrogation techniques are used, given that transparency is crucial 
in preventing torture and abusive interrogation techniques; and ensure 
that torture and abusive interrogation techniques such as those cited 
above are prohibited.
    I am an Associate Professor of Medicine at New York University 
School of Medicine. I am Director of the Bellevue/NYU Program for 
Survivors of Torture in New York City and the NYU School of Medicine 
Center for Health and Human Rights. Since our Program began in 1995, we 
have cared for over 2,000 men, women and children from more than 80 
countries. Our Program is a member of the National Consortium of 
Treatment Programs (NCTTP) whose approximately 30 member organizations 
care for torture victims in more than 20 states across the United 
States. Additionally we are members of the International Rehabilitation 
Council of Torture Victims (IRCT) which includes more than 130 torture 
rehabilitation centers and programs worldwide. Individuals cared for in 
the Bellevue/NYU program have been persecuted for daring to question 
ruling powers; for expressing religious beliefs; or simply because of 
their race or ethnicity.
    Additionally, I am co-chair of the Bellevue Hospital Bioethics 
Committee and oversee bioethics education at NYU School of Medicine. I 
have also served as a member of the American College of Physicians 
Ethics and Human Rights Committee.
    I am a member of the Advisory Council of Physicians for Human 
Rights (PHR). I have participated in PHR's asylum network examining 
victims of torture and mistreatment applying for political asylum here 
in the United States. I have also participated in several PHR 
investigations and studies documenting torture and mistreatment, and 
training health professionals in conducting such documentation. I 
served as an advisor and reviewer for the recent report from PHR and 
Human Rights First ``Leave No Marks.'' This report documents the 
harmful health impact of enhanced interrogation techniques and the risk 
of criminality. In my testimony today, I draw on my own clinical and 
research experience, including evaluation of several former U.S. 
detainees, as well as information presented in the PHR report and data 
from the medical literature.
    In my work with torture victims, I have seen the scars from 
shackles, the marks from cigarette bums inflicted during interrogation 
and the wounds and broken bones from severe beatings. I have listened 
to stories of shame and humiliation from individuals raped or sexually 
humiliated, of haunting nightmares, and memories that will not go away. 
One patient of mine, for example, who was repeatedly submerged in a vat 
of water while being interrogated, years later still felt as if he was 
gasping for air whenever he showered or went out in the rain.
    Torture can have devastating health consequences on the victim's 
physical, mental and social well being. Severe beatings or being 
restrained in painful positions can result in bruises, broken bones, 
severe and chronic pain including joint and muscle pain. Neurological 
symptoms including headaches, dizziness, hearing loss and loss of 
sensation are also common. Burns from cigarettes, beatings with whips 
or sticks can result in scars.
    Many forms of torture and abuse, including the enhanced 
interrogation techniques, may leave no physical scars but can 
nonetheless cause severe physical and psychological suffering. For 
example, if someone is forced to witness the rape or torture of a 
family member, or subjected to the sexual humiliation of forced 
nakedness, or a gun is held to their head and the trigger pulled in a 
mock execution, there may be no physical scars, but the nightmares, the 
terrors can persist for years after the trauma. One patient of mine 
while being interrogated had a gun pointed at his head which was 
abruptly pulled away and shot into the air. He told me ``Until now I 
still hear the sound of the gun in my brain. This psychological torture 
is encrusted in my brain.''
    According to one recent study published in the medical literature, 
the significance of harm caused by non-physical psychological abuse is 
virtually identical to the significance of the harm caused by physical 
abuse. In a study conducted by our own program, we found that 
psychological symptoms were significantly higher among those who 
experienced death threats.
    Psychological distress is alarmingly common among survivors of 
torture and trauma. This includes posttraumatic stress disorder (PTSD) 
manifested by recurrent terrifying memories and nightmares and profound 
social impairment; as well as depression manifested by extreme feelings 
of sadness and hopelessness, including suicidal thoughts. Severe and 
chronic sleep difficulties are also signs of both depression and PTSD 
and common sequellae of torture and abuse. Extreme stress results in a 
physiologic response that involves release of stress hormones, such as 
cortisol, that have immediate effects on cardiac function, and blood 
pressure and may even have long lasting effects on insulin resistance 
and immune function.
    The physical, psychological and social dimensions of health are 
interdependent. For example, an individual who was severely beaten may 
experience musculoskeletal pain. The recurring pain may trigger 
significant psychological symptoms, such as intrusive thoughts of the 
trauma. Because of these symptoms, the individual may be socially 
isolated, withdrawn and distrustful of society. Torture also impacts on 
the health of the community through fear and intimidation, which can 
become pervasive.
    It is important to note that any one form of torture or 
mistreatment rarely occurs in isolation, but in combination with 
several abusive methods. The harm caused by the combination is greater 
than the additive effect of individual techniques. Prolonged isolation, 
for example, combined with sleep deprivation, exposure to loud noises, 
and exposure to cold, compound their devastating psychological impact. 
Furthermore the potential of these techniques to cause harm is 
intimately related to the context and setting in which they are used. 
Settings are designed to maximize the detainee's sense of loss of 
autonomy and control and complete vulnerability to the interrogator. 
Fear of harm or even death is real, not imagined. Cultural and 
religious humiliations, and language barriers heighten stress.
    Such methods are potentially harmful to even individuals who were 
previously healthy. When used with individuals who have underlying 
psychological or medical problems, such as heart disease which may or 
may not be known, they can be potentially lethal for example by causing 
heart attacks or strokes.
    To think that abusive methods, including the enhanced interrogation 
techniques, are harmless psychological ploys is contradictory to well 
established medical knowledge and clinical experience. These methods 
are intended to break the prisoners down, to terrify them and cause 
harm to their psyche, and in so doing result in lasting harmful health 
consequences.
    While the health consequences of these methods are clear, it is 
dubious at best, that such brutal methods elicit accurate information. 
I know from the torture victims I have cared for that individuals so 
brutalized will often say whatever they think their interrogator wants 
to hear in order to stop the torture. Noted one torture victim I cared 
for: ``I would say anything to stop the torture. Even if what I was 
saying was not true. I would say what ever they wanted to hear to make 
them stop.''
    There must be no mistake about the brutality of the stress and 
duress ``enhanced interrogation methods'' and that the harmful medical 
consequences, both physical and psychological, of such coercive methods 
can be long lasting and severe. Each tactic, by itself or in 
combination has the potential to cause significant harm. These methods 
should be called for what they are: torture. Let me give some examples:
Sleep Deprivation
    Prolonged periods of sleep deprivation can result in confusion and 
psychosis-delusions and paranoia--clearly not predictors for eliciting 
accurate information. Physical symptoms include headaches and dizziness 
and chronic disruptions of normal sleep patterns. One patient of mine 
who in his country of origin was kept in a prison cell with bright 
lights and loud noises described the following. ``The absence of sleep 
made me feel so sick. I felt dizzy. I had headaches. It affected my 
mind. I had trouble in my mind I felt like I was going crazy.'' Sleep 
deprivation also weakens the immune system and deprives vital organs of 
needed time to repair damage inflicted to the body.
Stress Positions
    Restraining persons for extended periods, keeping individuals in 
painful positions can lead to significant and potentially long-term 
musculoskeletal pain as well as torn ligaments and other injuries and 
disabilities. Forcing individuals to stand for prolonged periods 
results in pooling of the blood and painful swelling of the lower 
extremities. It may result in blood clots in the legs (deep vein 
thromboses), which can subsequently travel to the lungs as pulmonary 
embolism--a potentially life threatening condition. Individuals forced 
to stand for extended periods are also more likely to faint and 
collapse, resulting in head trauma.
    One patient of mine, a woman who was a professor at a university in 
her African country was arrested there for criticizing the ruling 
party. She was beaten, sexually assaulted and forced to stand naked. 
She described how her captors mocked and laughed at her while she stood 
there. They refused her access to a toilet and she subsequently 
urinated on herself. Unable to stand any longer she fell to the ground, 
but was forced to stand up again. As a result of her abuse she suffered 
chronic deep vein thromboses in both of her legs, which caused painful 
swelling, and required anticoagulation medication for several years 
following her abuse. Another patient of mine--a Tibetan monk, arrested 
after working to promote freedom in Tibet-- suffered deep vein 
thromboses and subsequently pulmonary embolism as a result of prolonged 
standings and beatings. At the time I initially evaluated him he could 
barely breathe from the pulmonary embolism and nearly died. Several 
deaths of detainees in US custody in Iraq and Afghanistan are believed 
to have resulted directly from the use of stress positions, according 
to an analysis of coroners' reports.
Sensory Deprivation
    Sensory deprivation, such as being held for prolonged periods in a 
dark cell or hooding can result in disorientation, severe anxiety and 
long term psychological damage, particularly when combined with mock 
execution or other psychological methods. Years after being held in 
isolation in small dark cells, patients of mine describe experiencing 
profound nervousness particularly in the dark or in enclosed spaces. 
This is not because they were weak persons. To the contrary, they were 
commonly individuals who prior to their abuse were high functioning, 
strong and self-confident.
Violent Shaking
    Shaking can result in intracranial hemorrhages (bleeding of the 
brain), cerebral edema (swelling of the brain), resulting in increased 
intracranial pressure and permanent neurological deficits including 
cognitive impairments and/or death.
Sensory Overload
    Sensory bombardment with light and noise can inflict extreme mental 
and physical harm whether it is used as a discrete interrogation tool 
or to disrupt sleep. These methods are intended to cause physiologic 
distress and disorientation. The body interprets such over-stimulation 
as danger signals, and an adrenergic response ensues with the release 
of stress hormones, which result in increased heart rate, increased 
blood pressure. This can potentially increase the risk of life 
threatening conditions such as myocardial infarctions (heart attacks).
    Exposure to loud noises can result in chronic decreased hearing 
loss or even deafness or chronic tinnitus (ringing in the ears). Many 
of the patients I have cared for continue to suffer from poor hearing, 
tinnitus, and the sense that ``the noise is still in their head.''
Exposure to Extreme Cold or Heat
    Subjecting a prisoner to extremes of temperature clearly can cause 
enormous physical discomfort and suffering. The body is highly 
regulated to maintain core body temperature within a narrow range which 
is essential for human survival. Thus prolonged exposure to either 
extremes of cold or heat is potentially life threatening resulting in 
hypothermia or hyperthermia.
    Exposure to cold for example, by being placed in a room where it is 
very cold or forced to stand outside naked in the cold, and having cold 
water thrown on you, can have harmful consequences even if the 
environmental temperature is well above freezing. Even moderate cold 
exposure can lead to significant shifts from peripheral circulation--
the body's way of maintaining core body temperature. This in turn can 
result in life threatening cardiac arrythmias, slowing of 
gastrointestinal functioning and possible decreased resistance to 
infection, and neurologic and cognitive impairments. Such methods 
conjure memories of the infamous hypothermia experiments conducted by 
the Nazis where concentration camp prisoners were immersed in vats of 
cold water from which many died.
    Exposure to heat can result in dehydration, delirium, 
unconsciousness, and heat stroke--a life threatening condition. One 
patient of mine who was held in an overcrowded prison cell which was 
extremely hot and had bright lights described to me how dehydrated, 
weak and confused he became. He described how his skin became dry, 
cracked and even changed color ``like a snake.'' Many of his fellow 
cellmates fared even worse. ``People died in my arms,'' he told me.
Sexual Humiliation
    Forced nakedness and sexual humiliations, such as being forced to 
perform sexually humiliating or embarrassing acts; being naked in front 
of members of the opposite sex; sexual touching or insults or 
threatening with rape; result in feelings of shame, guilt and 
worthlessness. Witnessing others subjected to this can be extremely 
traumatizing as well. While many individuals I have evaluated who were 
subjected to sexual humiliations were raped and sodomized, even those 
who were not, commonly feared this would happen to them.
    Individuals whom I have evaluated, including those formerly 
detained in U.S. custody, subjected to sexual humiliations commonly 
described how utterly helpless, terrified and degraded they felt by 
such acts which destroyed their sense of dignity and self-confidence. 
Many of these victims shared their strong belief that such sexual 
humiliation was far worse than any beatings they may have experienced, 
and years later are haunted by shameful memories, nightmares, and loss 
of libido (decreased sexual functioning). While sexual humiliations are 
potentially traumatizing in all cultures, in certain cultures their 
impact may be even more traumatizing.
Water-boarding
    Water-boarding or mock drowning, where a prisoner is bound to an 
inclined board and water is poured over their face, inducing a 
terrifying fear of drowning clearly can result in immediate and long-
term health consequences. As the prisoner gags and chokes, the terror 
of imminent death is pervasive, with all of the physiologic and 
psychological responses expected, including an intense stress response, 
manifested by tachycardia, rapid heart beat and gasping for breath. 
There is a real risk of death from actually drowning or suffering a 
heart attack or damage to the lungs from inhalation of water. Long term 
effects include panic attacks, depression and PTSD. I remind you of the 
patient I described earlier who would panic and gasp for breath 
whenever it rained even years after his abuse.
Beatings
    Beatings can clearly result in serious bruises, soft tissue 
injuries, acute and chronic pain and broken bones and death. Slapping 
with an open hand can result in serious injury, for example when an 
individual is hit in a particularly vulnerable area such as the face. 
Neck injuries from an ``attention slap'' to the face where the head 
suddenly jolts back is predictable. I have cared for many individuals 
with chronic visual problems as a result of being struck on the face. 
Individuals subjected to beatings are also at risk of significant 
psychological symptoms including depression and PTSD.
    The combination of beating and stress positions has been implicated 
in at least two deaths of U.S. detainees. The use of beating in U.S. 
interrogation of detainees has often been called more benign names such 
as the ``attention'' slap or ``attention grab,'' Such forms of beatings 
can potentially cause significant injuries and harm.
Threats of Harm to Person, Family, or Friends
    It is well known through clinical experience and documented in the 
medical literature that threats to an individual's life or physical 
well-being or to the well-being of his family or friends can have 
profoundly harmful and long-lasting psychological impact. Such threats 
result in extreme fear and helplessness which are strongly associated 
with PTSD and major depression among trauma survivors.
    Many of my patients I have evaluated have described how such 
threats and the anticipation of such harm were psychologically 
devastating. Individual's have told me that even worse than their own 
torture was the feelings of guilt and helplessness from witnessing 
friends and loved ones tortured or that they might be subjected to such 
cruelty.
Exploitation of Fears and Phobias
    Exploitation of fears and phobias, such as exposure to animals 
intended to terrify individuals can be psychologically traumatizing. 
For example, one Iraqi former Abu Ghraib detainee whom I evaluated, 
described being threatened with dogs. ``I would hear the dog barking 
very close. Sometimes they would take (my) hood off so I could see the 
dog approaching.''
Medical Ethics and Interrogations
    It is a gross breach of professional ethics for health 
professionals in any way to countenance, condone or participate in the 
practice of torture, or other cruel, inhuman or degrading treatment or 
punishment of prisoners. This has been clearly stated by major health 
professional organizations including the American Medical Association, 
the American College of Physicians, the American Psychiatric and 
Psychological Associations, and the World Medical Association. 
Furthermore a health professional who becomes aware of abusive or 
coercive practices has a duty to report such practices to appropriate 
authorities. The American Psychological Association has specifically 
banned its members from participation in the tactics that allegedly 
make up the CIA's ``enhanced'' interrogation program.
    Regarding interrogations, all of these organizations, with the 
exception of the American Psychological Association, have stated it is 
a violation for health professional to participate in interrogations in 
any way, including medical monitoring of the subject. The basis for 
this is that a dual role as health professional-interrogator undermines 
the health professional's role as healer, and thereby erodes trust in 
the health professionals and their profession. Furthermore, exploiting, 
sharing or using medical information from any source for interrogation 
purposes is unethical.
    Throughout the 20th century, human rights groups have seen a clear 
pattern amongst governments that torture of co-opting the expertise, 
credibility and perceived neutrality of the medical profession to 
legitimize the use of many of the tactics in the CIA's ``enhanced'' 
interrogation program. Sadly, the US, a nation that has consistently 
spoken out against torture and the use of medical professionals in 
these practices is now seeking to cloak abusive and illegal 
interrogation techniques in the white coat of the medical profession. 
The Director of National Intelligence, Admiral Michael McConnell, 
claimed in July that the ``enhanced'' program is safe because of 
medical supervision. Health professionals that participate in the role 
Admiral McConnell describes violate the War Crimes Act, the Hippocratic 
Oath and the terms of their health professional license. By monitoring 
interrogations, health professionals cease to be healers and instead 
become calibrators of harm.
Health Impact of U.S. Interrogation Policies Worldwide
    I am very concerned as a health professional that when we as a 
country condone such methods, we are putting our soldiers and others 
U.S. citizens living around the world at risk. Furthermore, practicing 
or condoning torture by the United States in any way runs the risk of 
increasing what is already a world wide public health epidemic of 
torture--documented to occur in more than 100 countries. Torture is 
frequently invoked in the name of national security, whether the victim 
is a Tibetan monk calling for independence or an African student 
advocate protesting for democracy. While torture is not effective in 
eliciting accurate information, it is effective in undermining 
community, trust and safety. Any condoning of torture or mistreatment 
by our country, puts innocent civilians around the world promoting 
democracy and freedom under despot regimes in harms way.
    Added a torture victim I cared for: ``In order for the United 
States to be strong and speak truly to oppressive leaders around the 
world, the United States must not torture or mistreat its prisoners--
even terrorists. The United States must lead by example. When the 
United States uses these methods to get the information they want, the 
other governments who don't care about the population use torture to 
oppress their populations. They say `Even the United States uses 
torture. Why not us to protect our power?' It is essential that we have 
clear standards for the treatment of all detainees in U.S. custody.
Conclusion
    As a physician and scientist who has spent much of his professional 
career evaluating and caring for victims of torture and abuse, I want 
to clearly state that torture and inhuman interrogation techniques are 
cruel, ineffective and can have devastating health consequences. As a 
health professional, these abuses and the harm they cause deeply offend 
medical ethics and values. As an American, they offend the traditions 
and principles we have long shared and cherished as a nation, including 
a ban on torture and cruel, inhuman or degrading treatment or 
punishment that has stood inviolate since George Washington was 
Commander-in-Chief. I urge you to ensure that no one is authorized to 
violate these defining principles in the name of the United States.
Recommendations
1. The Intelligence Committee should conduct a full investigation 
        regarding interrogation practices.
    The Intelligence Committee should conduct a full investigation into 
what interrogation methods and related practices have been and are 
being used by the intelligence community, particularly with regards to 
the Central Intelligence Agency.
2. The Intelligence Committee should ensure transparency regarding 
        interrogation methods used.
    The idea that interrogation techniques must be secret is an 
invitation to torture. Arguably the most effective means of preventing 
torture is to ensure transparency.
3. The Intelligence Committee should ensure that torture and abusive 
        interrogation techniques are prohibited.
    The restrictions contained in the Army Field Manual should apply to 
the treatment of all detainees during interrogations conducted by all 
U.S. personnel (including the CIA and any contractors) anywhere in the 
world. Additionally, torture and abusive interrogation techniques such 
as stress positions, shaking and beating, temperature manipulation, 
threats of harm to person or loved ones, prolonged isolation, sleep 
deprivation, sensory overload, sensory deprivation, sexual humiliation, 
exploitation of fears and phobias, cultural or religious humiliation 
and water-boarding should be explicitly forbidden through amendments to 
the War Crimes Act.
4. The Intelligence Committee should ensure that health professionals 
        do not violate their professional ethics
    Health professionals must uphold the ethical standards of their 
professions and must not be put in positions where they are expected or 
asked to violate them. Press reports and government documents have 
shown that health professionals, especially psychologists and other 
mental health specialists, have allegedly played a central role in the 
design, supervision, and implementation of these abusive and illegal 
tactics. Congress must ensure that role is uniformly prohibited without 
exceptions.

    Vice Chairman Bond. Thank you, Dr. Keller.
    Ms. Massimino.

STATEMENT OF ELISA MASSIMINO, WASHINGTON DIRECTOR, HUMAN RIGHTS 
                             FIRST

    Ms. Massimino. Thank you, Senator.
    I am honored to be here today and I appreciate the 
opportunity to share with you the views of Human Rights First 
on this important issue. I'm not an expert on interrogations or 
intelligence. I've spent most of the last two decades working 
to leverage the positive example of the United States to 
pressure other governments to respect human rights. But I start 
from the premise that intelligence gathering is a vital tool in 
disrupting terrorist networks. Effective interrogations are an 
important part of this effort when they are conducted 
consistent with the laws and values of the United States.
    As General Otstott mentioned, the Director of National 
Intelligence recently said that he would not be comfortable 
having the CIA techniques used against Americans, but if 
there's one rule of U.S. interrogation policy after the Hamdan 
decision, it's this: if the U.S. does not want Americans to be 
subjected to these techniques, it must not employ them itself. 
If the CIA is authorized to use a particular interrogation 
method under the Executive Order, it means the U.S. considers 
that method compliant with Common Article 3 and that our 
enemies can lawfully use those methods against captured 
Americans in any situation governed by Common Article 3.
    This is hardly a theoretical concern. During the cold war, 
when my father served, captured CIA officers were subjected by 
Chinese interrogators to precisely the same kinds of abusive 
interrogation techniques that are now reportedly being used by 
the CIA--sleep deprivation, long time standing and other 
techniques that leave no physical external marks. Would it have 
made a difference to us if the purpose of the Chinese in 
interrogating those prisoners was not to humiliate or degrade 
the CIA officers but simply to gain information? I don't think 
so. Yet there is language in the Executive Order that would 
have offered the Chinese just such an argument. If it's read in 
this manner, the Executive Order sets a dangerous precedent.
    It's important to remember that all violations of Common 
Article 3 are prohibited, not just the grave breaches outlined 
in the Military Commissions Act. Congress explicitly rejected 
the Administration's proposal to limit U.S. obligations under 
Common Article 3 to torture and other war crimes. All of Common 
Article 3 applies to the CIA and the MCA did nothing to change 
that.
    Nor does the MCA authorize the enhanced interrogation 
techniques. To the contrary, Senator Warner said during debate 
that all the techniques banned by the Army field manual 
constitute grave breaches of Common Article 3 and are clearly 
prohibited under the MCA. No one contradicted that statement at 
any point in the Congressional debate, and no Member of 
Congress defended the specific techniques reportedly used by 
the CIA or claimed that those techniques would be legal. To the 
contrary, the Congressional record is crystal clear. The MCA 
was intended to rein in the CIA program.
    The highest-ranking uniformed lawyers of all four branches 
of the service agree that such techniques are illegal. They 
have all testified that the stress positions, the use of dogs, 
forced nudity and the like are illegal, inhumane and violate 
Common Article 3. This view is consistent with past U.S. 
practice, our own court precedent, and the views of our closest 
allies, as I outline in my written testimony.
    Administration officials frequently imply that the U.S. 
wants detainees to believe that they will be tortured by their 
American captors, yet we want the rest of the world to believe 
just the opposite. We can't have it both ways. The problem now 
is not that the enemy knows what to expect from us; it's that 
the rest of the world, including our allies, does not. There 
was a time, not that long ago, when the President declared that 
the demands of human dignity were ``nonnegotiable,'' when no 
one in the U.S. government questioned the meaning and scope of 
humane treatment provisions of the Geneva Conventions, and when 
the rest of the world viewed with great skepticism claims by 
U.S.-held prisoners that they had been abused.
    Today we are in a very different place. Our stand on human 
dignity seems to be that it is negotiable so long as there's no 
permanent damage. The humane treatment provisions of Common 
Article 3, which were clear to our military for more than half 
a century, are now considered by the Administration to be too 
vague to enforce, and much of the rest of the world believes 
that the U.S. routinely tortures prisoners in our custody.
    Congress should ensure that the U.S. adheres to a single 
standard of humane treatment of all prisoners in its custody. 
The most effective way to accomplish this would be to make the 
McCain amendment's Army field manual provision binding on all 
government agencies. For the safety of U.S. personnel and the 
integrity of human rights standards, the U.S. must make clear 
to the American people and to the rest of the world what it 
means when it says it will abide by its obligations under 
Common Article 3.
    Interrogation techniques need not cause permanent damage in 
order to be unlawful, but they have inflicted enormous damage 
on the honor and reputation of the United States. Your actions 
will help to determine whether that damage is permanent.
    Thank you.
    [The prepared statement of Ms. Massimino follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Vice Chairman Bond. Thank you very much, Ms. Massimino.
    Now we'll turn to Professor Turner.

   STATEMENT OF PROFESSOR ROBERT F. TURNER, SJD, CENTER FOR 
              NATIONAL SECURITY LAW, UNIVERSITY OF

                     VIRGINIA SCHOOL OF LAW

    Mr. Turner. Vice Chairman Bond, Members of the Committee, 
it is a great honor to be here today. I have a rather lengthy 
prepared statement that I would propose to submit for the 
record.
    Vice Chairman Bond. That will be submitted, without 
objection. We appreciate your summarizing it in five minutes.
    Mr. Turner. I believe I was invited because I co-authored 
an op ed article in the Washington Post on July 26 with former 
Marine Corps Commandant P.X. Kelley criticizing the Executive 
Order in question. My formal statement is divided into three 
parts, starting with constitutional law, then international 
law, then some public policy considerations which I would 
really like to expand upon.
    My constitution discussion is somewhat detailed because I 
think there's a great deal of confusion about separation of 
powers in this area of foreign affairs and intelligence. I 
wrote a 1,700-page doctoral dissertation on this issue many 
years ago, and I've been frustrated by much of the debate on 
both sides.
    Guided by writers like John Locke and Montesquieu and 
William Blackstone, as well as their own experience under the 
Articles of Confederation, the Founding Fathers did not intend 
for Congress to have any role in what John Jay in Federalist 64 
called ``the business of intelligence'' beyond providing funds. 
Jay discussed the importance of protecting intelligence sources 
and methods and explained that because Congress and the Senate 
could not be trusted to keep secrets, the Constitution had left 
the President ``able to manage the business of intelligence as 
prudence might suggest.''
    The early appropriations for intelligence told the 
President to just tell us how much you spent and we will 
replenish the kitty, but do not tell us if you think anything 
has to be kept secret. In my statement I quote Thomas Jefferson 
and his rival Alexander Hamilton as well, explaining that the 
grant of ``executive power'' to the President in Article II, 
Section 1, carried with it the general management of foreign 
affairs, subject to a few narrowly-construed negatives or 
``exceptions'' vested in the Senate or in Congress. I quote 
Chief Justice John Marshall in perhaps the most famous of all 
Supreme Court cases, Marbury v. Madison, as declaring ``there 
exists no power'' to control the President's constitutional 
discretion in the foreign affairs area.
    I strongly suggest that one of our biggest problems in the 
post-Vietnam era has in fact been legislative law-breaking. 
Both the President and Congress must obey the higher law of the 
Constitution. To give you just one example, since the Chadha 
decision in 1983 that outlawed legislative vetoes, Congress has 
enacted more than 500 of those unconstitutional acts. But there 
is no constitutional problem with Congress legislating to 
enforce Common Article 3, because one of those ``exceptions'' 
expressly given to Congress is the power, in Article I, Section 
8, to define and punish violations of the law of nations, and 
certainly that includes the Geneva Conventions, which are the 
most subscribed-to conventions in the history of the world.
    The constitutional section of my prepared statement also 
notes that under our Constitution the President has sole power 
to interpret the international meaning of treaties in the 
nation's dealing with the external world. Both the President 
and Congress have the power to violate treaty obligations, but 
I stress--and this is critically important--this is only true 
in terms of domestic United States law; and such actions make 
us an international lawbreaker liable to a variety of potential 
remedies available to other treaty partners. And while we're 
talking about war crimes I would emphasize that includes the 
right of 193 other countries to try Americans for violations of 
Common Article 3 and any grave breaches of the law of armed 
conflict. There is no statute of limitations. People engaged in 
this behavior may spend the rest of their lives unable to 
travel to foreign countries.
    Part two of my statement addresses international law 
issues. It looks briefly at the history of Jus in Bello and, in 
particular, the travaux of Common Article 3 of the four 1949 
Geneva Conventions. In doing some additional research for 
today's hearing, I must confess I was surprised to find a very 
strong case that Common Article 3 was originally written to 
address the problem of civil wars and revolutions within a 
single state and that many prominent scholars have interpreted 
it that way, despite some last-minute changes in its wording 
that to me suggest it applies to all armed conflicts not 
involving sovereign states on both sides.
    I believe the United States is bound by Common Article 3, 
but were there no Common Article 3, we would still be bound by 
the humanitarian principles it embodies as a matter of 
customary international law. That has been the position of our 
government for many years.
    I've given you some examples of ways in which language 
similar to that in Common Article 3 has been interpreted by 
international tribunals like the European Court of Human 
Rights, the International Criminal Court for the former 
Yugoslavia, and the International Criminal Tribunal for Rwanda. 
With the permission of the Committee, I would like to expand 
that section for the record in the next few days.
    Vice Chairman Bond. Without objection, it will be accepted.
    Mr. Turner. Turning to policy issues, in 1809, Thomas 
Jefferson wrote a letter to newly-elected President James 
Madison in which he said, ``It has a great effect on the 
opinion of our people and the world to have the moral right on 
our side.'' In his very excellent speech earlier this month to 
the Council on Foreign Relations, General Hayden emphasized 
``winning the war of ideas actually defines the long-term 
victory that we seek.'' I could not agree more. And to win this 
war, America must maintain the high moral ground.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Turner follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Vice Chairman Bond. Thank you, Professor Turner.
    Without objection, the Committee has received statements 
from the American Psychological Association and the National 
Religious Campaign Against Torture.
    Without objection, those will be included in the record.
    [The information referred to follows:]
    Statement of the American Psychological Association Concerning 
                     Psychology and Interrogations
    For more than two years the American Psychological Association 
(APA), a scientific and professional organization of more than 150,000 
psychologists and affiliates, has examined in depth the ethical aspects 
of psychologists' involvement in interrogation settings. Members of the 
APA and outside groups with an interest in this issue have discussed 
and debated the appropriate role for psychologists in eliciting 
information in both domestic and foreign non-treatment related 
contexts.
    The APA has drawn three central conclusions from its work on this 
complex and challenging issue:

    <bullet>  First, psychologists have important contributions to make 
in eliciting information that can be used to prevent violence and 
protect our nation's security;
    <bullet>  Second, there must be clear ethical guidelines governing 
processes by which information is elicited from an individual who may 
not be willing to provide the desired information;
    <bullet>  Third, further research on all aspects of information-
educing processes is critical.

Psychologists' Contributions to Eliciting Information
    Conducting an interrogation is inherently a psychological endeavor. 
Forming a relationship and building rapport have proven to be effective 
means of eliciting information. Psychology is central to this process 
because an understanding of an individual's belief systems, desires, 
motivations, culture and religion likely will be essential in assessing 
how best to form a connection and facilitate educing accurate, reliable 
and actionable intelligence. Psychologists have expertise in human 
behavior, motivations and relationships. The background, training, and 
experience offered in psychology are therefore highly relevant to the 
process of creating and nurturing conditions that will maximize the 
likelihood of obtaining good and useful information. Psychologists have 
valuable contributions to make toward the goals of preventing violence 
and protecting our nation's security through interrogation processes.
Need for Strict Ethical Guidelines within Interrogation Policy
    The process of eliciting information from an unwilling individual 
must be governed by strict ethical guidelines. The APA has issued three 
statements in the past three years that speak directly to the ethics of 
psychologists' involvement in information-eliciting processes. The 
central message of these texts, taken individually and as a group, is 
that there is no room for abuse in forming the kind of relationship 
that will result in gathering useful information and that respecting 
the individual's dignity is essential in all aspects of these 
endeavors.
    The first of the three APA statements was issued in 2005, the 
Report of the Task Force on Psychological Ethics and National Security. 
This task force report contained twelve statements that formed the 
initial position for APA on psychologists' involvement in interrogation 
settings:

        1. Psychologists do not engage in, direct, support, facilitate, 
        or offer training in torture or other cruel, inhuman, or 
        degrading treatment.
        2. Psychologists are alert to acts of torture and other cruel, 
        inhuman, or degrading treatment and have an ethical 
        responsibility to report these acts to the appropriate 
        authorities.
        3. Psychologists who serve in the role of supporting an 
        interrogation do not use health care related information from 
        an individual's medical record to the detriment of the 
        individual's safety and well-being.
        4. Psychologists do not engage in behaviors that violate the 
        laws of the United States, although psychologists may refuse 
        for ethical reasons to follow laws or orders that are unjust or 
        that violate basic principles of human rights.
        5. Psychologists are aware of and clarify their role in 
        situations where the nature of their professional identity and 
        professional function may be ambiguous.
        6. Psychologists are sensitive to the problems inherent in 
        mixing potentially inconsistent roles such as health care 
        provider and consultant to an interrogation, and refrain from 
        engaging in such multiple relationships.
        7. Psychologists may serve in various national security-related 
        roles, such as a consultant to an interrogation, in a manner 
        that is consistent with the Ethics Code, and when doing so 
        psychologists are mindful of factors unique to these roles and 
        contexts that require special ethical consideration.
        8. Psychologists who consult on interrogation techniques are 
        mindful that the individual being interrogated may not have 
        engaged in untoward behavior and may not have information of 
        interest to the interrogator.
        9. Psychologists make clear the limits of confidentiality.
        10. Psychologists are aware of and do not act beyond their 
        competencies, except in unusual circumstances, such as set 
        forth in the Ethics Code.
        11. Psychologists clarify for themselves the identity of their 
        client and retain ethical obligations to individuals who are 
        not their clients.
        12. Psychologists consult when they are facing difficult 
        ethical dilemmas.

    Central ethical issues that govern psychologists' involvement in 
interrogations emerge from these twelve statements of the Task Force 
Report on Psycholoqical Ethics and National Security:

    <bullet>  Psychologists must never engage in, promote, or 
facilitate torture or cruel, inhuman, or degrading treatment or 
punishment;
    <bullet>  Psychologists who become aware that torture or cruel, 
inhuman, or degrading treatment or punishment is being perpetrated have 
an ethical responsibility to report such abuse to appropriate 
authorities;
    <bullet>  Psychologists must keep separate their roles as 
healthcare providers from their non-healthcare provider roles; and
    <bullet>  Psychologists must stay within the bounds of their 
competence.

    The following year, the APA's governing body, the Council of 
Representatives, adopted the 2006 Resolution Against Torture and Other 
Cruel, Inhuman, and Degradinq Treatment or Punishment. This resolution 
elaborated upon key elements of the 2005 task force report. The 2006 
resolution reemphasized the absolute prohibition against torture in 
several clauses:

        BE IT RESOLVED that regardless of their roles, psychologists 
        shall not knowingly engage in, tolerate, direct, support, 
        advise, or offer training in torture or other cruel, inhuman, 
        or degrading treatment or cruel, inhuman, or degrading 
        punishment;
        BE IT RESOLVED that psychologists shall not provide knowingly 
        any research, instruments, or knowledge that facilitates the 
        practice of torture or other forms of cruel, inhuman, or 
        degrading treatment or cruel, inhuman, or degrading punishment;
        BE IT RESOLVED that psychologists shall not knowingly 
        participate in any procedure in which torture or other forms of 
        cruel, inhuman, or degrading treatment or cruel, inhuman, or 
        degrading punishment is used or. threatened . . . ;

    The 2006 resolution reiterated that psychologists have an ethical 
responsibility to report acts of abuse:

        BE IT RESOLVED that psychologists shall be alert to acts of 
        torture and other cruel, inhuman, or degrading treatment or 
        cruel, inhuman, or degrading punishment and have an ethical 
        responsibility to report these acts to the appropriate 
        authorities;

    In addition, the 2006 resolution drew from international human 
rights instruments by adopting the definition of torture set forth in 
the UN Convention Against Torture and Other Cruel, Inhuman, and 
Degrading Treatment or Punishment, and by stating that psychologists 
must work in according with human rights instruments relevant to their 
roles:

        BE IT RESOLVED that, in accordance with Article I of the United 
        Nations Declaration and Convention Against Torture and Other 
        Cruel, Inhuman, or Degrading Treatment or Punishment, [T]he 
        term ``torture'' means any act by which severe pain or 
        suffering, whether physical or mental, is intentionally 
        inflicted upon a person for such purposes as obtaining from him 
        or a third person information or a confession, punishing him 
        for an act he or a third person has committed or is suspected 
        of having committed, or intimidating or coercing him or a third 
        person, or for any reason based on discrimination of any kind, 
        when such pain or suffering is inflicted by or at the 
        instigation of or with the consent or acquiescence of a public 
        official or other person acting in an official [e.g., 
        governmental, religious, political, organizational] capacity. 
        It does not include pain or suffering arising only from, 
        inherent in, or incidental to lawful sanctions [in accordance 
        with both domestic and international law];
        BE IT RESOLVED that based upon the APA's long-standing 
        commitment to basic human rights including its position against 
        torture, psychologists shall work in accordance with 
        international human rights instruments relevant to their roles;

    The 2006 Resolution thus emphasizes and elaborates upon key aspects 
of the 2005 Task Force Report on Psychological Ethics and National 
Security.
    In 2007, the APA issued a third resolution titled Reaffirmation of 
the American Psychological Association Position Against Torture and 
Other Cruel, Inhuman, or Degrading Treatment or Punishment and Its 
Application to Individuals Defined in the United States Code as ``Enemy 
Combatants.''
    The APA's 2007 resolution elaborates upon several elements central 
to the 2006 resolution and the 2005 task force report. The 2007 
resolution identifies techniques that fall under the definition of 
``torture'' and other ``cruel, inhuman, and degrading treatment,'' thus 
adding specificity to the concepts of torture and abuse:

        BE IT RESOLVED that this unequivocal condemnation includes all 
        techniques defined as torture or cruel, inhuman or degrading 
        treatment under the 2006 Resolution Against Torture and Other 
        Cruel, Inhuman, or Degrading Treatment or Punishment, the 
        United Nations Convention Against Torture, and the Geneva 
        Convention. This unequivocal condemnation includes, but is by 
        no means limited to, an absolute prohibition for psychologists 
        against direct or indirect participation in interrogations or 
        in any other detainee-related operations in mock executions, 
        water-boarding or any other form of simulated drowning or 
        suffocation, sexual humiliation, rape, cultural or religious 
        humiliation, exploitation of phobias or psychopathology, 
        induced hypothermia, the use of psychotropic drugs or mind-
        altering substances used for the purpose of eliciting 
        information; as well as the following used for the purposes of 
        eliciting information in an interrogation process: hooding, 
        forced nakedness, stress positions, the use of dogs to threaten 
        or intimidate, physical assault including slapping or shaking, 
        exposure to extreme heat or cold, threats of harm or death; and 
        isolation, sensory deprivation and over-stimulation and/or 
        sleep deprivation used in a manner that represents significant 
        pain or suffering or in a manner that a reasonable person would 
        judge to cause lasting harm; or the threatened use of any of 
        the above techniques to the individual or to members of the 
        individual's family;

    In addition, the 2007 resolution further elaborates the ethical 
responsibility of psychologists to cooperate with oversight activities:

        BE IT RESOLVED that the American Psychological Association 
        asserts that all psychologists with information relevant to the 
        use of any method of interrogation constituting torture or 
        cruel, inhuman, or degrading treatment or punishment have an 
        ethical responsibility to inform their superiors of such 
        knowledge, to inform the relevant office of inspector generals 
        when appropriate, and to cooperate fully with all oversight 
        activities, including hearings by the United States Congress 
        and all branches of the United States government, to examine 
        the perpetration of torture and cruel, inhuman, or degrading 
        treatment or punishment against individuals in United States 
        custody, for the purpose of ensuring that no individual in the 
        custody of the United States is subjected to torture or cruel, 
        inhuman, or degrading treatment or punishment;

    The 2007 resolution also calls upon U.S. legal systems to reject 
testimony that results from torture or cruel, inhuman, or degrading 
treatment or punishment:

        BE IT RESOLVED that the American Psychological Association, in 
        order to protect against torture and cruel, inhuman, or 
        degrading treatment or punishment, and in order to mitigate 
        against the likelihood that unreliable and/or inaccurate 
        information is entered into legal proceedings, calls upon 
        United States legal systems to reject testimony that results 
        from torture or cruel, inhuman, or degrading treatment or 
        punishment.

    Central to the APA's analysis of these issues in the 2005 task 
force report and the 2006 and 2007 resolutions is that the appropriate 
question is not whether psychologists may contribute to eliciting 
information to prevent acts of violence and protect our nation's 
security, but rather how they may do so in an ethical manner.
Need for Relevant Research
    The third and final conclusion that the APA has drawn from its work 
in this area is that essential research is lacking. Creating a research 
agenda is critical and cannot wait. A cursory review of the issues 
yields questions that are central to the process of eliciting 
information but that have little basis in extant research. Five 
examples are:

    <bullet>  What is the most effective means of eliciting information 
from a recalcitrant subject?
    <bullet>  What indicia may be used to differentiate when a subject 
is providing accurate and actionable intelligence from when a subject 
is intentionally providing false or useless information?
    <bullet>  How may culture, ethnicity, religion and gender 
facilitate, or hinder, the process of eliciting information?
    <bullet>  What characteristics make an individual a more--or less--
effective interrogator?
    <bullet>  What background and training best prepares interrogators 
for their task?

    These are a very few of the myriad questions for which research is 
necessary. In line with the November 2006 Intelligence Science Board 
Study Report on Educinq Information, APA recommends that this Committee 
authorize development and funding of a research ``center of 
excellence'' on educing information under the Director of National 
Intelligence. Five and ten years from now we should not be forced to 
rely on anecdotal accounts of what is or is not effective 
interrogation. The APA has been actively engaged in examining the 
ethical role of psychologists in interrogation settings. Research will 
be critical for psychologists to move our understanding of these 
processes to a deeper and more effective level.
    For more information please contact: Stephen Behnke, JD, PhD, 
Director, Ethics Office, American Psychological Association, 
202.336.6006 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed9e8f8885838688ad8c9d8cc3829f8ac3">[email&#160;protected]</a>
Statement of Rev. George Hunsinger on Behalf of the National Religious 
    Campaign Against Torture Concerning CIA Interrogation Techniques
    I appreciate the opportunity to submit this written statement to 
the committee. The National Religious Campaign Against Torture (NRCAT) 
is a campaign of over 125 religious organizations working together to 
abolish U.S. policy permitting torture or cruel, inhuman or degrading 
treatment of anyone, without exception. NRCAT members include 
representatives from the Catholic, evangelical Christian, mainline 
Protestant, Orthodox Christian, Unitarian Universalist, Jewish, Quaker, 
Muslim, and Sikh communities. Additional information about NRCAT, our 
membership, and our work are attached to this statement.
    NRCAT believes that torture violates the basic dignity of the human 
person that all religions hold dear. It degrades everyone involved--
policy-makers, perpetrators and victims. It contradicts our nation's 
most cherished ideals. Any policies that permit torture and inhumane 
treatment are shocking and morally intolerable.
    Since the disclosure of the pictures from Abu Ghraib, through the 
reports by released detainees and human rights groups, and up to the 
July 20 Executive Order by President Bush, we have been aware of the 
fact that the CIA has engaged in an interrogation program that uses 
techniques involving torture and cruel, inhuman, or degrading 
treatment. Although the Executive Order now says it prohibits such 
treatment of detainees, it allows the CIA to continue to use undefined 
and undisclosed ``alternative interrogation techniques,'' creating 
serious doubt as to whether the prohibition is real. And, as you know, 
the Executive Order does not close or prohibit the use of secret 
prisons--the only purpose of which is perceived to be to engage in 
torture or cruel, inhuman, or degrading treatment--nor does it prohibit 
sending detainees to countries which have been known to torture for 
interrogation.
    With the President's Executive Order and the accompanying 
statements of the President and the Director of the CIA, the United 
States Government has reaffirmed its policy of treating some human 
beings as outside the protections of any law and of using--in the name 
of national security--techniques that amount to torture. We believe 
that the United States should be doing just the opposite--affirming the 
right of every human being to be protected by the laws of civilized 
society and decrying any treatment that comes close to the edge of 
torture or cruel, inhuman or degrading treatment.
    I am not speaking today on whether or not torture ``works,'' the 
implications of our country's use of torture on our military personnel 
when they are captured, or the effect our use of torture has on how the 
United States is perceived around the world. While I believe the 
conclusion to each of those discussions is a compelling decision not to 
use torture, I am speaking to you today only from the moral or 
religious perspective. NRCAT is submitting this statement, because 
regardless of what anyone believes about torture's effectiveness (and I 
believe the overwhelming evidence is that torture is not effective), it 
is morally wrong and should never be used by the United States against 
anyone under any circumstances.
    The urge to humiliate, torment and degrade lurks deep within the 
human breast. Under conducive circumstances no one can entirely 
withstand it. Sadism is not born but made. That is why torture, once 
chosen, cannot readily be contained, and is soon preferred. Torture, 
once chosen, both proliferates and corrupts. Proliferation is its 
dimension of breadth, and corruption its dimension of depth. Torture 
undermines victim and torturer alike. It corrodes the society that 
permits it. It overthrows the rule of law, and then destroys the 
tyrannies that it spawns. Corrupting the soul, it eventually corrupts 
everything in its path. Torture is itself the ticking bomb.
    We speak to the issue of torture and the CIA's ``alternative 
interrogation techniques'' from our common religious principles that 
affirm the inherent worth and dignity of all people. Although our 
beliefs are rooted in many different religions, and although we worship 
in different ways and in different languages, we stand firmly united 
and unswerving on this crucial moral issue. Our condemnation of torture 
is not based on any political opinion or on the laws or treaties of any 
nations. Rather, we are guided by a higher law that serves as a compass 
for all of humanity.
    Continuation of the CIA's ``alternative'' interrogation program, 
including the use of secret prisons and rendition for torture, is 
wrong. As people of faith--who value our common humanity and our 
religious responsibility to treat all people with decency and the due 
process protections of civilized law--we urge you immediately to stop 
the use of the ``alternative interrogation techniques'', to close all 
secret prisons, and to stop rendition to torture.
    Thank you for the opportunity to submit this statement.

    Vice Chairman Bond. Now, because of time constraints, I 
will not only call on the distinguished Senator from California 
to ask questions, but I will pass to her the ultimate weapon of 
authority, the small wooden gavel. I thank our witnesses for 
their testimony.
    Senator Feinstein [presiding]. Well, thank you very much, 
Mr. Vice Chairman. We understand that you have to leave. The 
two of us will carry on here.
    I want to begin by thanking the five of you for coming here 
today. I want to thank you for the papers you've submitted. 
They are not classified, and it's my intention to take them out 
and take them with me and really read them as carefully as I 
possibly can. One of the problems we have here is that we can't 
really take notes with us of classified information. So I think 
your history, your ideas, your thoughts are really, really 
important.
    Let me give you a summary statement. I very much agree with 
you. I think that this is essentially a war of ideas. I think 
our values are being tested. I think the people we interrogate 
are not people who are drafted into the North Korean army or 
into the German army during World War II. They are hard, fast 
ideologues who are prepared to give their lives for what they 
believe, either by exploding themselves or whatever else.
    And I candidly believe that some of this just doesn't work. 
Although we're not often told this, we probably get a lot of 
bad intelligence in the process as well. We probably get some 
good intelligence in the process as well.
    I also agree with you on the President's July 20, 2007, 
statement. I'd just like to point something out. On page 2, 
subsection (e), where it states that ``wilful and outrageous 
acts of personal abuse done for the purpose of humiliating or 
degrading the individual in a manner so serious,'' et cetera, 
but I gather if it's done for the purpose of collecting foreign 
intelligence, it's okay. I think that's a real problem with the 
statement.
    Have you looked at that? Do you agree with this, or do you 
have any other thoughts?
    General Otstott. I absolutely agree with you on that. It 
opens the door for bad behavior.
    Mr. Turner. You will remember from law school, no doubt, 
the Latin expression ``expressio unius est exclusio 
allerius''--the expression of one thing is the exclusion of 
another. And when you say if you do this for the purpose of 
humiliating people, you can't threaten to sexually mutilate 
them and so forth, implicit in that, at least a reasonable 
interpretation of that is that if your purpose is, as you say, 
collecting intelligence or trying to protect against the next 
terrorist attack, then these things are not off limits.
    That's very offensive.
    Senator Feinstein. Thank you. Senator Whitehouse, you're 
on.
    Senator Whitehouse. Thank you.
    I'd like to join you in thanking these witnesses. I found 
their testimony very helpful. Professor Turner, it's nice to 
see a professor from my alma mater here testifying.
    Senator Feinstein. Oh, that's why you're so smart.
    Senator Whitehouse. For the record, she was referring to 
Professor Turner. [Laughter.]
    Senator Whitehouse. I thought, Ms. Massimino, that your 
comparisons with some of the historical antecedents where we 
were on the other side was extremely helpful to understand 
particularly the episode of the Japanese officer sentenced to 
hard labor for war crimes for the techniques that you 
indicated.
    Colonel Kleinman, you entered the service in 1985?
    Colonel Kleinman. I was commissioned in 1985, yes, sir.
    Senator Whitehouse. And you're still on active duty today?
    Colonel Kleinman. I'm an active reservist. I'm the senior 
reserve intelligence officer for the Air Force Special 
Operations Command.
    Senator Whitehouse. In the 22 years that you have been 
serving, how much of that time has been dedicated to 
interrogation and human intelligence collection?
    Colonel Kleinman. One hundred percent, sir. That's my 
career. The sum total of my career has been in human 
intelligence, much of it relating to either interrogation or 
resisting interrogation.
    Senator Whitehouse. And you've been an advisor to 
intelligence teams and interrogators operating truly at the 
forefront of our most significant conflicts, correct?
    Colonel Kleinman. Yes, sir. I've conducted interrogations 
myself. I was also a team chief during the Gulf War, where I 
had interrogators from all the services under my command as we 
interrogated literally thousands of Iraqis. I was an advisor to 
a Special Operations Task Force on Interrogation during Iraqi 
Freedom. So I've had a chance to really look at the academic 
theoretical side, but I am steeped in the operational side.
    Senator Whitehouse. If you look at what we're allowed to do 
to collect information under the Army field manual, there are 
arguably two constraints on it, two limiting factors. One is 
the limiting factor that we have discussed here, the sort of 
moral limiting factor, the if we do it to them they can do it 
to us factor--the sort of golden rule of interrogation, if you 
will.
    Let me ask you, just for purposes of argument, to set that 
aside for a minute and consider, as a real career expert in 
intelligence-gathering from people who you have custody over, 
if you could set aside the rest of it, if you were in a dark 
room, you knew nobody would ever look, the intelligence that 
you needed to get was of urgent value, would you feel that from 
a point of view of intelligence-gathering effectiveness you 
would or could or should go beyond the Army field manual and 
the techniques that are authorized in the Army field manual in 
order to obtain that intelligence?
    Colonel Kleinman. Senator, I thank you so much for that 
question, because I think I've been waiting twenty years to 
answer it. That is, absolutely not. I do not perceive the 
construct of the Army field manual places undue limitations in 
terms of what I need to do to generate useful information. 
That's the key--accurate, useful information, not leading 
questions to force somebody to say what they think I want to 
hear. My goal is to explore the full spectrum of their 
knowledgeability, where they answer not only the questions I 
ask but also, by developing what I call operational accord, I 
am able to build a relationship such that they see it's in 
their best interests, under non-pressure, non-coercive 
circumstances that it would be in their best interest to answer 
these questions fully.
    I've had situations during the Iraq war where we were very 
interested in the location of SCUD missile systems. I had a 
source that nobody suspected of having knowledge in this area. 
At the conclusion of four hours of interrogating him about 
other elements--and it was a treasure trove of information--we 
had a relationship such that as I was getting up, shuffling my 
papers, he said, ``Didn't you want to know where the SCUD 
missiles were?'' So I said, ``We've spent four hours already, 
I'm tired, can't we do this tomorrow. [Laughter.]
    Colonel Kleinman. I, of course, sat back down and he gave 
us incredible information. And the reason, he told me, was that 
he was so amazed at his treatment. I hoped, he said, that if I 
was going to be captured, that I would be captured by one of 
your allies, not by the Americans, because I was told you were 
animals. But you've treated me like a gentleman. You've treated 
me with respect, and you are clearly knowledgeable of my 
customs and my culture. I'm more than happy to answer any 
question you have.
    Senator Whitehouse. May I follow up? I'm afraid something 
you said might be taken out of context. I'd like to go back and 
ask you to go over with it again with me. You said briefly ``I 
am not limited by the Army field manual.'' When you said that, 
I assume you did not mean that in the actions that you 
undertake in your professional capacity there's anything you do 
that's not limited by the Army field manual, as a matter of 
law.
    I assume that what you meant to say was that you did not 
see the constraints of the Army field manual--the moral 
constraints, the legal constraints--as in any way inhibiting 
the effectiveness of your examination techniques--that you 
could do everything you wanted to, that you missed for nothing 
because of those restrictions. Is that what you intended to 
say?
    Colonel Kleinman. Senator, I am forever in your debt for 
allowing me to correct myself, because that's precisely what I 
meant to say. I don't see those as limiting my ability to 
work--the spirit or the letter of that guidance. My approach 
was what we call a relationship-based approach--far more than 
just rapport-building. I've never felt any necessity or 
operational requirement to bring physical, psychological or 
emotional pressure on a source to win their cooperation.
    So, following the guidance in the field manual, I feel 
unconstrained in my ability to work in the paradigm that I've 
taught for so many years.
    Senator Whitehouse. Can you assume another country in which 
there is no such constraint, in which the Chinese feel at 
liberty to put American prisoners into prolonged stress 
positions or the Japanese feel free to take American prisoners 
of war and lean them against the wall on their fingertips for 
extended hours, or other such devices that would exceed the 
limitations of the Army field manual are pursued? Why is it 
that those interrogators utilize those techniques? Is it just 
professional disagreement? Do they have a sort of different 
view of what is effective? Why do they do it?
    Again, setting aside the moral constraints, which I know 
animate you very much and me as well, but for purposes of 
discussion, from a pure intelligence collection perspective and 
setting aside any moral or golden rule limitations on the 
behavior that you would want to limit yourself to, why is that 
some interrogators would feel that it was appropriate to go 
beyond what's permitted by the Army field manual?
    Colonel Kleinman. As a graduate of the University of 
California, I tip my hat to the University of Virginia for the 
critical thinking skills that are taught to the graduates, 
because, sir, that gets to the very heart of the matter, and it 
is this: there are two objectives that one can pursue in 
interrogation--either winning cooperation or compliance. They 
seem very similar, but there are profound differences.
    Compliance means to take action that's against your 
interests, that you don't support, and frequently has nothing 
to do with intelligence. Cooperation is winning a source's 
willingness to provide useful information. What the Chinese 
were interested in, what the Koreans were interested in, what 
the North Vietnamese were interested in was maybe five percent 
intelligence, 95 percent compliance, meaning creating 
propaganda.
    Now that's a whole different paradigm. And the approaches 
that they used--like sleep deprivation and torture--ultimately 
will get any one of us in this room to do things that we 
couldn't imagine today. But it doesn't necessarily mean our 
ability to provide useful information.
    The other part of that paradigm is the fact that obtaining 
intelligence--as I mentioned in my opening remarks--is getting 
access to somebody's functioning memory. If you think back to 
just the panel before ours, if I were to question each of you 
systematically, under the best of circumstances, to tell me 
what happened--who said what, when, what were the proposals, 
who agreed, who disagreed and so forth--we would find some real 
deficits in your memory--again under perfect circumstances.
    Imagine now if I had had you standing for twelve hours or 
in stress positions and now I'm asking you to call upon your 
memory. Even if you wanted to, even if you were wilful, you 
would be undermined in your ability to do so. So I think the 
key point, sir, is are we trying to produce compliance, which 
is propaganda, or cooperation, which leads to intelligence.
    Senator Whitehouse. Madam Chair, thank you for letting me 
go over. It's been enormously valuable to me to hear firsthand 
from somebody who has such firsthand lifelong experience in the 
field in this discussion. So thank all of the panel. Colonel, I 
thank you, and I thank the Chair for letting me expend the 
time.
    Senator Feinstein. You are very welcome. Let me ask one 
last question.
    This is a very troubling aspect, I think, of our processes 
now, and the question really comes how to handle it. There is a 
real element of fear that our country is vulnerable and that we 
know there are people that want to hurt us and hurt us in the 
most grievous manner possible. Therefore, to be able to get the 
maximum amount of information I think the country has been 
somewhat humiliated by the fact that Usama bin Ladin has never 
been found. Therefore, there's a lot of pressure to try to find 
as much as possible out about al-Qa'ida, its whereabouts, its 
training grounds, its leadership, and to be able to get to 
them.
    You have submitted, all of you, that you do not believe 
that so-called EITs--and we won't say what they are, but let's 
use your description of them, whether that description is right 
or wrong--enhanced interrogation techniques are not necessarily 
effective.
    At this stage, how would you recommend that we proceed? How 
do you recommend we find the information that we need? It is 
amazing to me that, despite a $50 million reward, no one has 
come forward with information with respect to the whereabouts 
of Usama bin Ladin. One has to assume that there are a lot of 
people that actually know where he is who could really benefit 
from that money.
    But I think the level of fear, the level of cooption, the 
level of ideologic zealotry that is connected to this 
fanaticism is really unprecedented in our history.
    I know you'll say the manual, and I happen to agree with 
that. But if you have any other comments I'd like to take just 
one last shot at hearing what they are.
    Ms. Massimino. If I might, Senator, there is another field 
manual that I think is important, which really gets to the 
heart of your question of how we win a battle against an enemy 
like that. And that is the manual that General Petraeus oversaw 
before he left to take over in Iraq--the counterinsurgency 
manual. There I think that the field manual on interrogations 
fits like a glove with the overall strategy outlined in the 
counterinsurgency manual, which is that you seek to de-
legitimize the enemy in the eyes of the population from which 
it gets its recuperative power, its recruits. You seek to 
separate the enemy from its support base. And one of the ways 
of doing that is to maintain the moral high ground, to 
criminalize the actions of the enemy in the society where they 
are operating.
    And one of the warnings in that manual is the degree to 
which our forces and our personnel use the methods of the 
enemy. We then forfeit our benefit in this asymmetric war 
against them. They will use methods that we would never 
contemplate. That's their supposed advantage.
    Ours is that our values and our ideas are better and we 
don't want to forfeit that. If we forfeit that, that's the 
message of the counterinsurgency manual, as I read it, and it 
really gets to the heart of what you're asking about, I think.
    Senator Feinstein. Thank you. Any other last comment?
    General Otstott. I would just comment that we are in what 
has been described as a long war or a persistent conflict, and 
these are religious zealots. Our most dangerous enemies are 
Islamic jihadist fundamentalist zealots. The people that know 
exactly where Usama bin Ladin is at any given time probably are 
no more than a dozen or a hundred. And they are zealots and 
they are religiously motivated. I don't think you could pay 
them enough money to come out of the cave and say he's in 
there, because that would just go against everything that they 
are very, very strongly religiously motivated by.
    So it comes down to the war of ideas. We've got to somehow 
spread the ideas we have that are on a higher plain and get 
them to disown jihadism. We need to offer ideas in their 
cultural understanding that prevents jihadism from growing 
amongst the people who are disadvantaged, who have no hope, who 
have no economy to speak of and have no purpose in life except 
to pick up an AK-47 and wage war against the ``crusaders'' or 
the infidels. Somehow we've got to get beyond the idea that we 
can torture information out of somebody and make them tell us 
where Usama bin Ladin is and then all will be well.
    Mr. Turner. About two years ago I going on vacation, riding 
across the country with my son, when Voice of America called 
and said what do you think about all this stuff about torture. 
My response was, ``some very good people have done some very 
bad things for very good reasons,'' which is to say good people 
are trying to stop terrorism and they think this is the way to 
do it.
    I don't think it's the way to do it. The people I've talked 
to in the FBI and people here on this panel say that doesn't 
work. I don't agree we necessarily need to have a uniform 
standard. That is to say it may well be the CIA has a very 
senior Islamic scholar who they could send in and engage in a 
debate about what the Qur'an means. For a Christian Army 
sergeant to go in and do that would be absolutely asinine. So, 
to me, the standard ought to be ``humane treatment.''
    Common Article 3 and customary international law require 
humane treatment. It's a fairly high standard. I love the test 
the Army uses, which they call their modified golden rule. Ask 
yourself how you would feel if they did this to our prisoners. 
If you find it objectionable, don't do it.
    We have the ticking bomb scenario. My guess is we'll never 
have that case. If we did, I'm not prepared to say that I would 
risk 2,000 or 100,000 lives in a setting involving WMD 
protecting the civil liberties of a terrorist. We would violate 
the law. We would be vulnerable to war crimes trials. But I can 
understand somebody making that policy judgment. But ultimately 
you certainly don't do it by issuing an Executive Order saying 
as long as you don't want to humiliate a detainee you can rip 
his fingernails out.
    We have to maintain the high moral ground. I think the 
Director of the CIA was exactly right when he said this is a 
struggle for ideas. The General just said that. We can't win 
that struggle if the world and our own people see us as 
barbarians.
    Colonel Kleinman. I just wanted to answer your question 
this way. We have actually encountered this very same 
circumstance once before, back in 1941. When we went to 
interrogate Japanese prisoners of war, they were seen as 
zealots. The language was ``impenetrable.'' The culture was 
``inscrutable.'' It was beyond our understanding. But we had an 
approach, conducted by a small group of people who spent a lot 
of time in Japan, who spoke the language, who were absolutely 
comfortable in that culture. They used what I call enlightened 
cultural finesse.
    These prisoners were taught bushido from the youngest age, 
where not only would they resist; they could not even envision 
becoming a prisoner. But they found themselves as prisoners and 
they found people who understood them, who could speak the 
language, who treated them with respect under that code, and it 
was amazing the intelligence that flowed and the relationships 
that developed. It was beyond what everybody thought possible. 
Everybody thought the Japanese only knew force. And that's what 
was used other places and was ineffective.
    So I think probably it's a mistake to say that we've never 
quite encountered this type of zealotry. We have, but America 
was successful before.
    Senator Feinstein. Thank you very much.
    Dr. Keller. Senator, I'd like to say, just briefly, first 
of all, we all know what's at stake. I will tell you on 
September 11 I was rounding the bend at the Lincoln Tunnel when 
the first plane hit the World Trade Center and had an 
unobstructed view of that. So in my being I understand this, 
and rushed to the Bellevue emergency room to do what we could.
    These methods--first of all, taking it from the side of the 
interrogators and why it's so important to have clear 
standards, we like to think of people who would torture as two-
headed monsters, and we've learned very clearly in the 
psychological literature that it's easier to do these things 
than we'd like to think it is. That's why there's a need for 
very clear guidance, that these methods in no way are allowed.
    The other thing, from a health perspective, that really 
frightens me is that I know from my colleagues caring for 
torture survivors around the world that those at risk of being 
tortured, individuals speaking out for democracy and freedom, 
are at far greater risk now of being tortured, I believe, than 
they were before. So we've made the world a much more dangerous 
and, I believe, far more unhealthy place for ourselves and for 
civilians around the world.
    Senator Feinstein. On that note, let me once again say 
thank you to the five of you, and the hearing is adjourned.
    [Whereupon, at 4:32 p.m., the Committee adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
